                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: 109110069                                                                      Page 1 of 1



         We received an allegation that a PI 1 on several NSF awards2 was misusing NSF award funds and
         making false statements to NSF. Our investigation revealed the Subject made numerous
         misrepresentations to NSF regarding the use of employees on the awards. Further, our
         investigation revealed that the Subject requested NSF funds that he did not need or use, As a
         result ofboth the misrepresentations and the receipt of unnecessary funds, Subject retained profit
         beyond the 7% that is permissible under the SBIR program.

         The matter was referred to the Department of Justice and a civil settlement was reached. As part
         of the settlement the Subject did not admit any wrongdoing but did repay the United States an
         agreed upon amount.

         The Subject was debarred by NSF for a period of five years. 3

         This investigative case is closed with no further action necessary.




NSF OIG Form 2 (11102)
